           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


           COLLECTION OF
     CIVIL MONETARY PENALTIES

     August 2011   A-06-11-11136




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      August 12, 2011                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Collection of Civil Monetary Penalties (A-06-11-11136)


           OBJECTIVE
           Our objective was to assess the Social Security Administration’s (SSA) effectiveness in
           collecting civil monetary penalties (CMP).

           BACKGROUND
           CMPs are imposed against individuals, organizations, or other entities that violate
           sections 1129 1 or 1140 2 of the Social Security Act (Act). Individuals, organizations, or
           other entities violate section 1129 of the Act by knowingly misleading SSA and/or
           making false statements to obtain or retain SSA benefits. They violate section 1140 of
           the Act by using words, letters, symbols, or emblems in a manner that falsely conveys
           SSA’s approval, authorization, or endorsement. The Commissioner of Social Security
           delegated the authority for imposing CMPs to the Office of the Inspector General
           (OIG). 3 The OIG’s Office of Counsel to the Inspector General (OCIG) is responsible for
           administering the program.

           OCIG forwards section 1129 CMPs to SSA’s Office of Operations for collection. Unless
           the violator enters into a settlement agreement, SSA should withhold 100 percent of the
           individual’s Social Security benefit or Supplemental Security Income payment until the
           CMP is repaid. 4 For violators who are not in current payment status, SSA can take
           other steps to ensure future CMP collections. OCIG forwards section 1140 CMPs to
           SSA’s Office of Finance for collection.


           1
               Social Security Act § 1129, 42 U.S.C. § 1320a-8.
           2
               Social Security Act § 1140, 42 U.S.C. § 1320b-10.
           3
            See Memorandum from Shirley S. Chater, Commissioner of Social Security to Inspector General,
           Delegations of Authority To Implement Sections 1129 and 1140 of the Social Security Act, June 28, 1995.
           4
               SSA, POMS, GN 02230.060 A.2.d (03/14/2011).
Page 2 - The Commissioner


Because CMPs result from fraud and related misconduct, SSA cannot terminate
collection or write off the debt without Department of Justice approval, regardless of the
amount. 5 Although the courts have not addressed whether bankruptcy discharges an
assessment in lieu of damages, CMPs are considered fines or penalties that are not
subject to discharge in bankruptcy. 6

From September 1997 through December 2009, 7 OCIG imposed 1,356 section 1129
CMPs, totaling approximately $23.9 million, and forwarded them to the Office of
Operations for collection. 8 From October 1999 through December 2009, OCIG
forwarded 15 section 1140 CMPs, totaling about $3.1 million, to the Office of Finance
for collection. We provide additional background information in Appendix B and our
scope and methodology in Appendix C.

RESULTS OF REVIEW
SSA’s efforts to collect section 1140 CMPs were effective. The Office of Finance
collected approximately $1.5 million of the $3.1 million assessed and was working with
the Department of Justice to collect the remaining balances.

SSA’s section 1129 CMP collection efforts need improvement. 9 Office of Operations’
CMP coordinators stated they received CMP assessment notifications, reviewed the
packages, and forwarded the information to applicable regional offices or program
service centers for collection. However, SSA did not implement sufficient controls to
monitor or report collection activities periodically or ensure Office of Operations staff
initiated CMP collection. Although OCIG has been referring CMPs to SSA for collection
since Calendar Year 1997, SSA did not develop written policies for CMP collection until
May 2010. 10

Our review of 50 randomly selected CMPs indicated that SSA had collected only
15 percent of penalties imposed through December 2009. 11 Based on our sample
results, we estimate that SSA collected about $3 million of the $23.9 million in penalties
assessed during that timeframe (see Appendix D).

5
    SSA, POMS, GN 02230.060 H (03/14/2011).
6
    SSA, POMS, GN 02230.050 G.10 (05/24/2010); see also 11 U.S.C. § 523(a)(7).
7
  We limited our review to CMPs imposed through December 31, 2009 to provide SSA reasonable time to
initiate collection activity.
8
 Before May 2010, the Office of Financial Policy and Operations, Office of Payment Recovery and Policy,
was responsible for receiving the CMP information from OCIG, creating a transmittal with directions for
posting the CMP to an individual's record, and forwarding the information to Operations for collection.
9
    Subsequent information presented in the report refers exclusively to section 1129 CMPs.
10
     See Footnote 8.
11
     Collections through October 2010.
Page 3 - The Commissioner



              Status of SSA Collection Activity for 50 Randomly Selected CMPs
                                                                                      No Collection
                                                                                   Activity - Individual
                           Uncollected
                                                                                   Not in Current Pay
                            $646,824
                             (85%)                                                        Status
                                                                                        $425,499




                                                                                               Collecting Per
                                                                                            Approved Settlement
                                                                                                Agreement
                                                                                                    $53,743
Collected
$112,423
 (15%)                                   Individual in Current   Individual in Current
                                                                    Pay Status-SSA       Individual Died Before
                                          Pay Status-No SSA                               Collection Completed
                                          Collection Activity    Collecting Less Than
                                                                      Authorized                 $21,142
                                               $119,318
                                                                        $27,122


SSA recovers CMPs primarily by withholding some or all of an individual’s benefit
payment. Our sample results indicated the low collection rate was primarily attributable
to the fact that SSA did not collect many CMPs assessed against individuals who were
not in current payment status.

However, we also determined SSA did not always collect CMP amounts due from
individuals receiving payments. Based on our sample results, we estimate SSA had not
taken action to collect approximately $3.2 million in CMPs assessed against individuals
who were receiving SSA payments at the time of our audit. In addition, SSA withheld
smaller amounts from individuals’ monthly payments than authorized or did not
complete recovery because individuals who received payments died before making full
restitution.

SSA Collection Activity for 50 Randomly Selected CMPs

SSA completed collection against eight individuals who were assessed a total of
$46,971 in CMPs. In seven additional cases,12 SSA was collecting CMPs in
accordance with negotiated settlement agreements. However, SSA’s collection efforts
in the other 35 cases were less effective.




12
     As of October 2010, SSA had collected $25,669 of $79,412 in CMPs imposed against the individuals.
Page 4 - The Commissioner


No Collection Activity from Individuals Receiving SSA Payments

In 11 of 50 randomly selected CMP cases, SSA did not take action to recover
$119,318 in CMPs imposed against individuals who received SSA payments at the time
of our review.

                                No Collection Activity from
                           Individuals Receiving SSA Payments
                     Date CMP          Uncollected       Individuals’ Monthly
                     Imposed            Balance             SSA Payment
                       Mar-03              $2,200                $1,209
                       Aug-03             $10,000                  $478
                                                                        13
                       Dec-04             $10,000                  $674
                       Aug-05             $14,317                $1,304
                        Jan-06             $2,500                $1,317
                       Mar-07              $8,575                  $674
                       Sep-07              $6,439                  $774
                       May-08              $1,850                  $728
                       Sep-08             $10,000                  $694
                       Sep-08             $30,000                  $674
                       Mar-09             $23,438                  $674
                          Total          $119,318*
                  * Does not add due to rounding.

•     In six cases, SSA’s payment records did not contain a reference to the CMP.

•     In three cases, SSA’s payment records contained references to CMPs; however,
      SSA did not withhold amounts from the individuals’ payments to recover the CMPs.

       In one case, SSA collected overpayments from an individual; however, the
        collections were unrelated to the CMP assessed against this individual. Because
        CMPs typically involve fraud or misconduct, CMP collection takes priority over
        other collection activities and should not be subordinated to other overpayment
        collection activity unless authorized by an approved settlement agreement. 14
        The settlement agreement did not authorize SSA to subordinate collection of this
        CMP.
       SSA incorrectly consolidated one CMP with other overpayments appearing on an
        individual’s payment record, and then erroneously stopped collection action
        because of a pending medical cessation hearing.
       SSA established cross-program recovery efforts for one CMP but did not initiate
        collection.

13
  SSA withholds the entire $674 in satisfaction of an unrelated overpayment. However, at the time of our
review, the CMP amount did not appear on the individual’s payment record.
14
     SSA, POMS, GN 02230.060 A.2 (03/14/2011).
Page 5 - The Commissioner


•     In one case, SSA annotated the individual’s payment record with a remark
      referencing the CMP; however, staff did not post the CMP for collection.

•     In one case, SSA initiated collection of a $15,694 CMP in June 2006. From July
      through September 2006, SSA recovered $1,377 from the individual’s payments.
      However, in September 2006, an unexplained systems transaction reduced the
      balance due from $14,317 to $0. SSA cannot terminate collection or write off CMP
      balances without Department of Justice approval. We found no documentation that
      justified SSA’s deletion of the balance due from this individual.

Absent an approved settlement agreement, 15 SSA should take 100 percent of an
individual’s benefit payment to satisfy a CMP. 16 SSA did not implement controls to
monitor or report CMP collection status, or ensure amounts were recovered from
current payments. Based on our sample results, we estimate SSA was not taking
action to collect approximately $3.2 million in CMPs assessed against violators who
were receiving benefits.

Collecting CMPs at Less Than Required Withholding Rates

In three cases with unpaid balances totaling $27,122, SSA initiated collection activity
but withheld amounts from individuals’ current payments that were less than amounts
stipulated in CMP default letters.

                  CMPs Collected at Less Than Default Letter Amount
              Date            CMP           Unpaid        Monthly SSA   Amount
            Imposed          Amount         Balance        Payment      Withheld
             Aug-05          $15,000        $12,248          $694          $54
              Jul-06         $10,000         $7,424          $505          $55
             Aug-07          $10,000         $7,450          $293          $75
                                            $27,122

In one case, SSA collected only $54 from an individual’s $694 monthly payment. At that
rate of collection, it will take more than 18 years to recover the CMP. In a second case,
SSA collected only $55 from an individual’s $505 monthly payment. At that rate of
collection, it will take more than 11 years to recover the CMP. In the third case,
available documentation indicated field office personnel agreed to reduce the CMP
collection amount from the full amount of the individual’s SSA payment to $75 per
month. In all three cases, we found no evidence to indicate SSA obtained approval to
withhold less than the full payment amount.




15
     OCIG approved settlement agreements in 6 of the 11 cases.
16
     SSA, POMS, GN 02230.060 A.2.d (03/14/2011).
Page 6 - The Commissioner


Individuals Died Before SSA Recovered the CMP

In three cases, CMP balances totaling $21,142 were uncollected because the
individuals died before SSA recovered the amounts due. Two of the three individuals
were receiving SSA payments, and CMP collections were ongoing at the time of death.
SSA policy states that the Agency should seek payment of the CMP debt from the
individual’s estate. 17 SSA could not provide evidence that estate development took
place in two of the three cases18, and had not requested Department of Justice approval
to write off unpaid balances.

                        Individuals Who Died Before CMP Recovered
            Date CMP           CMP              Amount             Balance          Date of
            Imposed           Amount           Recovered            Due             Death
             Jan-01           $11,516           $1,674              $9,842          Sept-02
             Jun-06            $9,200             $900              $8,300          July-08
             Dec-07            $5,000           $2,000              $3,000           Jan-09
                                                                   $21,142

No CMP Collection Activity from Individuals Who Did Not Receive SSA Payments

In 18 cases with unpaid balances totaling $425,499, the violators were not receiving
benefits at the time of our review. In these instances, SSA notes the debt on the
individual’s record in the event the individual becomes eligible for payments in the
future. 19 In 14 cases, we confirmed that SSA staff posted the uncollected debt in
accordance with Agency policy. However, in four cases, additional SSA action was
required to post the CMP and/or provide the necessary CMP remarks. Absent such
notation on these payment records, SSA employees will not know to initiate collection
activity in the event the individuals become eligible for SSA payments.

                          Uncollected CMP Balances from Individuals
                             Who Did Not Receive SSA Payments
                             Year CMP           Number of          Uncollected
                              Imposed             Cases             Balance
                             2000-2002              3                $23,536
                             2003-2005              2                $26,105
                             2006-2007              4                $71,027
                             2008-2009              9               $304,831
                                                   18               $425,499



17
     SSA, POMS, GN 02230.060 H (03/14/2011).
18
     Operations staff stated that in December 2010, SSA initiated estate development on one of the cases.
19
     SSA, POMS, GN 02230.055 A.4.b and A.5.b (05/24/2010).
Page 7 - The Commissioner


SSA may return CMP debt imposed by settlement agreement that is not being repaid to
OCIG for possible further administrative action. Otherwise, SSA may forward the matter
to its Office of General Counsel for possible civil action. 20 However, during our review,
we found no documentation to indicate SSA had pursued these alternatives in any of
the 18 cases.

SSA officials stated that staff had been working with the Office of General Counsel to
modify existing regulations to include CMP debts as eligible for Department of the
Treasury referral. In the future, SSA plans to initiate other collection actions (Tax
Refund Offset, Credit Bureau Reporting, Administrative Wage Garnishment, etc.) for
CMP debts.

CONCLUSION AND RECOMMENDATIONS
Office of Finance efforts to collect section 1140 CMPs were effective, but Office of
Operations efforts to collect section 1129 CMPs need improvement. Based on our
sample results, we estimate SSA collected only about $3 million of the $23.9 million in
section 1129 CMP fines assessed through December 2009. SSA did not always initiate
CMP collection activity against individuals who received SSA payments. Based on our
sample results, we estimate that SSA did not initiate collection of approximately
$3.2 million in CMPs owed by individuals receiving SSA benefits. This occurred
because the Office of Operations did not implement effective controls to monitor or
report CMP collection activity. Implementing effective controls could help ensure the
recovery of approximately $20 million in uncollected CMPs.

We recommend SSA:

1. Take action to address collection errors associated with our sampled cases.

2. Improve tracking and monitoring controls to ensure better collection of current and
   future CMPs, particularly section 1129 CMPs imposed against individuals in current
   payment status.

3. Provide periodic reports to SSA management on the status of CMP collection
   activities.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA’s comments are included in Appendix E.




                                               Patrick P. O’Carroll, Jr.

20
     SSA, POMS, GN 02230.060 I and J (03/14/2011).
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
Act      Social Security Act
CMP      Civil Monetary Penalty
OCIG     Office of Counsel to the Inspector General
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                                Appendix B

Background
A civil monetary penalty (CMP) is imposed against individuals, organizations, or other
entities that violate sections 1129 1 or 1140 2 of the Social Security Act (Act). Individuals,
organizations, or other entities violate section 1129 of the Act in the following ways.

•         Making false statements or representations in connection with obtaining or retaining
          benefits or payments under Titles II, VIII, or XVI of the Act3 or making such
          statements or representations with knowing disregard for the truth. 4

•         Omitting material information from a statement or representation that the person
          knows or should know is material to the determination of any initial or continuing
          right to benefits or payments under Titles II, VIII, or XVI of the Act if they know or
          should know that the statement or representation with such omission is false or
          misleading. 5

•         Failing to report a change in status that the person knows or should know is material
          to the determination of any initial or continuing right to benefits or payments under
          Titles II, VIII, or XVI of the Act if they know or should know that the failure to report
          such change is misleading. 6

•         Wrongfully converting Social Security benefits while acting in the capacity of a
          representative payee. 7

Section 1140 of the Act is a consumer protection tool against misleading advertising.
Section 1140, in part, prohibits the use of Social Security Administration (SSA) words
and symbols in advertisements, solicitations, or other communications in a manner that




1
    Social Security Act § 1129, 42 U.S.C. § 1320a-8.
2
    Social Security Act § 1140 , 42 U.S.C. § 1320b-10.
3
    Supra note 1 at §1320a-8(a)(1)(A).
4
    Supra note 1 at §1320a-8(a)(1)(B).
5
    Supra note 1 at §1320a-8(a)(1)(C).
6
    Id.
7
    Supra note 1 at §1320a-8(a)(3).



                                                   B-1
conveys the false impression that such item is approved, endorsed, or authorized by
SSA or that such person has some connection with, or authorization from, SSA. 8

For violations of section 1129, the Act authorizes a CMP of no more than $5,000 for
each violation and/or an assessment in lieu of damages of no more than twice the
amount of improper benefit payments that resulted from the violation. 9 With regard to
section 1140 violations, CMPs may be imposed in an amount up to $5,000 for each
violation of the statute. 10 Moreover, in the case of violations consisting of a broadcast
or telecast, section 1140 authorizes the imposition of civil monetary penalties up to
$25,000. 11




8
  Supra note 2 at §1320b-10(a)(1). In addition, section 1140 prohibits the fee-based reproduction,
reprinting or distributing of any item consisting of a form, application, or other publication of SSA unless
such person has obtained specific, written authorization for such activity in accordance with the
regulations prescribed by the Commissioner. Supra note 2 at §1320b-10(a)(2)(A). Moreover, section
1140 prohibits persons from assisting an individual to obtain a product or service that they know or should
know is provided free of charge by SSA without providing sufficient notice that the product or service is
available free of charge from SSA and complies with the standards set forth by the Commissioner
regarding placement, visibility, and legibility. Supra note 2 at §1320b-10(a)(4)(A).
9
    Supra note 1 at § 1320a-8(a)(1)(C).
10
  Supra note 2 at §1320b-10(b)(1). This means up to $5,000 for each piece of violative mail, each
misleading attorney advertisement, etc.
11
   Supra note 2 at §1320b-10(b)(2). The language of the statute indicates that this applies to each
violation. For example, in the case of a misleading commercial that violates section 1140, each time that
commercial is broadcast, it is subject to up to $25,000 in a potential civil monetary penalty.


                                                   B-2
                                                                       Appendix C

Scope and Methodology
To accomplish our objective, we:
•   Reviewed pertinent sections of the Social Security Act and the Social Security
    Administration’s Program Operations Manual System.
•   Interviewed Office of Counsel to the Inspector General (OCIG) attorneys regarding
    their process for assessing civil monetary penalties (CMP), the data collection tools
    for tracking CMPs, and the data contained in the National Investigative Case
    Management System related to CMPs.
•   Interviewed Headquarters staff from the Offices of Financial Policy and Operations,
    Public Service and Operations Support, and Systems.

•   Identified 1,356 section 1129 CMPs, totaling approximately $23.9 million, assessed
    by OCIG and 15 section 1140 CMPs, totaling approximately $3.1 million, assessed
    by court judgments through December 2009. We reviewed available documentation
    to determine the collection status of

     50 randomly selected section 1129 CMPs and

     all 15 section 1140 CMPs.

We performed our audit in the Dallas Audit Division between September 2010 and
February 2011. We tested the data obtained for our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were the Offices of
(1) Financial Policy and Operations, Offices of Payment and Recovery Policy and
Finance under the Deputy Commissioner for Budget, Finance and Management;
(2) Public Service and Operational Support under the Deputy Commissioner for
Operations; and (3) the Deputy Commissioner for Systems. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective.
                                                                                               Appendix D

     Sampling Methodology and Results
     We obtained section 1140 civil monetary penalty (CMP) information from the Office of
     Finance and identified a population of 15 CMPs imposed from October 1999 through
     December 2009. To determine the Social Security Administration’s (SSA) effectiveness
     in collecting the CMPs, we reviewed the collection status of all 15 cases.

     We also identified a population of 1,356 section 1129 CMPs imposed by the Office of
     Counsel to the Inspector General from September 1997 through December 2009. To
     determine SSA’s effectiveness in collecting CMPs, we randomly selected 50 cases and
     determined the collection status of each sampled case.

     Based on our random sample of 50 CMP cases, we found that SSA had collected
     $112,423 of the $759,248 CMPs assessed for the 50 sampled cases (see Table D-1).
     We also determined that SSA was not collecting CMP balances due from 11 individuals
     who received SSA payments at the time of the audit.
                               Table D-1. Collection Status of 50 Randomly Selected CMPs
                                                          Number of Sampled Cases Where                   Individual Not in Current
                                                      Individual Was in Current Payment Status                 Payment Status
           Number                                                   Collected
Calendar     of                Collected                               per          No       Collecting       No       Died Before
  Year     Sample    CMP         as of   Uncollected   Collected   Settlement   Collection    Less than   Collection    Collection
Imposed     Cases   Amount     10/2010    Balance       in Full    Agreement     Activity    Authorized    Activity    Completed
  2000       1        $7,182         $0       $7,182      0            0            0            0            1             0
  2001       3       $21,516      $4,674     $16,842      1            0            0            0            1             1
  2002       3       $25,354     $14,800     $10,554      1            1            0            0            1             0
  2003       4       $37,200      $9,208     $27,992      0            1            2            0            1             0
  2004       3       $28,000      $3,000     $25,000      1            0            1            0            1             0
  2005       3       $31,694      $5,129     $26,565      1            0            1            1            0             0
  2006       8       $87,659     $35,447     $52,212      1            3            1            1            1             1
  2007       9      $126,751     $16,711    $110,040      1            1            2            1            3             1
  2008       10     $141,512     $18,404    $123,108      2            1            3            0            4             0
  2009       6      $252,380      $5,050    $247,330      0            0            1            0            5             0
 Totals      50     $759,248    $112,423    $646,825      8            7           11 1          3           18 2           3




     1
      In four cases (one 2005 case, two 2007 cases, and one 2008 case), SSA records indicated some prior
     CMP collection activity.
     2
       In eight cases (one 2003 case, two 2007 cases, two 2008 cases, and three 2009 cases), SSA records
     indicated some prior CMP collection activity.


                                                          D-1
Projecting these results to our population of 1,356 cases with a total CMP fine amount
of $23.9 million, we estimate that (1) SSA had collected approximately $3 million in
CMP fines and (2) there were 298 individuals in current pay status with about
$3.2 million in CMP fines but no current collection activity. The following tables provide
the details of our sample results and statistical projections.

            Table D-2: Population and Sample Size                 Number      CMP Amount

Population Size                                                     1,356         $23.9 M

Sample Size                                                            50        $759,248


                                                                                Collected
  Table D-3: Estimated Amount of SSA CMP Collections              Number         Amount

Sample Results                                                         33        $112,423

Point Estimate                                                        895      $3,048,913

Lower Limit                                                           728      $1,963,765

Upper Limit                                                         1,042      $4,134,061

Note: All projections are at the 90-percent confidence level.



   Table D-4: Estimated Individuals with CMP Fines in                         Uncollected
     Current Pay Status with No Collection Activity               Number       Amount

Sample Results                                                         11        $119,318

Point Estimate                                                       298       $3,235,916

Lower Limit                                                          177       $1,324,044

Upper Limit                                                          455       $5,147,788

Note: All projections are at the 90-percent confidence level.




                                                   D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY


MEMORANDUM


Date:      July 21, 2011                                                           Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Collection of Civil Monetary Penalties”
           (A-06-11-11136)--INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "COLLECTION OF CIVIL MONETARY PENALTIES" (A-06-11-11136)

Below are our responses to your recommendations.

Recommendation 1

Take action to address collection errors associated with our sampled cases.

Response

We agree.

Recommendation 2

Improve tracking and monitoring controls to ensure better collection of current and future CMPs,
particularly 1129 CMPs imposed against individuals in current pay status.

Response

We agree. We will centralize the workload by assigning Civil Monetary Penalty (CMP) cases to
one Program Service Center and develop a database to control and track the cases.

Recommendation 3

Provide periodic reports to SSA management on the status of CMP collection activities.

Response

We agree. While, we currently do not have an automated system in place to track and monitor
CMP cases, we will continue to explore ways to improve the manual process. In addition, the
database control activities described in recommendation number 2 should assist with automating
this effort.




                                               E-2
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Chasity Crawley, Senior Auditor

   Sandi Archibald, Attorney

   Amy Shemenski, IT Specialist

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification NumberA-06-11-11136.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
